         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Audit Report
Office of Science's Energy Frontier
Research Centers




OAS-RA-L-10-09                         August 2010
DOE F 1325.8
(08-93)
United States Government                                                            Department of Energy


Memorandum
        DATE:    August 27, 2010                                   Audit Report Number: OAS-RA-L-10-09
    REPLY TO
     ATTN OF:    IG-32 (A10RA003)
   SUBJECT:      Audit Report on "Office of Science's Energy Frontier Research Centers"
           TO:   Associate Director, Office of Basic Energy Sciences, SC-22

                 INTRODUCTION AND OBJECTIVE

                 In 2008, the Department of Energy's (Department) Office of Science (Science) issued a
                 Funding Opportunity Announcement seeking applications from the scientific community
                 for the establishment of Energy Frontier Research Centers (EFRCs). The purpose of the
                 EFRCs is to integrate the talent and expertise of leading scientists to accelerate the rate of
                 scientific breakthroughs needed to create advanced energy technologies for the 21st
                 century. The EFRCs are to pursue the fundamental understanding necessary to meet the
                 global need for abundant, clean, and economical energy. The EFRC research areas
                 include solar energy, electricity storage, materials sciences, biofuels, advanced nuclear
                 systems, and carbon capture and sequestration.

                 In April 2009, Science announced the establishment of 46 EFRCs, of which 16 would be
                 funded by the American Recovery and Reinvestment Act of 2009 (Recovery Act). The
                 Recovery Act was enacted to stimulate the United States' economy, create jobs, and make
                 infrastructure investments in energy and other areas. Science plans to invest a total of
                 $777 million over five years, providing each EFRC between $2 million and $5 million
                 per year. The 16 EFRCs funded by the Recovery Act are funded for the full 5 years in
                 the amount of $277 million, whereas the other 30 EFRCs as well as other types of
                 research awards require annual requests for funding to continue.

                 Due to the significant investment in this program and the emphasis placed on Recovery
                 Act funding, we initiated this audit to determine whether Science had established
                 effective controls over the use of Recovery Act funds and EFRCs.

                 CONCLUSION AND OBSERVATIONS

                 Nothing came to our attention which indicated that Science had not substantially
                 complied with Recovery Act requirements in expending funds for the EFRCs. For
                 example, we found that the EFRCs were generally in compliance with reporting
                 guidelines, had segregated funds, and had ensured that Recovery Act requirements were
                 included in subcontracts.

                 Further, nothing came to our attention which indicated that Science had not established
                 controls over the award and monitoring of EFRC research awards. For the 12 grant
applications we selected for review, Science's Merit Review Panel had rated each of the
applications using the criteria described in the Funding Opportunity Announcement,
including the scientific merit of the project and competency of the personnel.
Additionally, Science had approved management plans for the EFRC grants and had
performed site visits to the EFRCs, held monthly teleconferences to review scientific
progress and maintained frequent communication with the EFRCs.

It is important to note that the EFRCs have characteristics which increase their risk and
complexity. Specifically, the EFRCs:

        support high-risk, high-reward experimental and theoretical research;

        use multiple investigators rather than an individual investigator as is the case in
        other Science awards; and,

        receive more funding than the typical Science award.

Because the EFRCs are newly established and display characteristics that increase
complexity and risk, Science will need to provide continued oversight and monitoring of
the EFRCs throughout their five-year life.

Since no recommendations are being made in this report, a formal response is not
required. We appreciated the cooperation of the various Department elements and all the
staff at the contractors during this effort.




                                              David Sedillo, Director
                                              NNSA & Science Audits Division
                                              Office of Inspector General

Attachment

cc: Director, Office of Risk Management, CF-80
    Team Leader, Office of Risk Management, CF-80
    Audit Resolution Specialist, Office of Risk Management, CF-80
    Audit Liaison, Office of Science, SC-41
    Audit Liaison, Chicago Office




                                         2
                                                                                      Attachment


SCOPE AND METHODOLOGY

This audit was performed between April 2010 and August 2010. Our audit included the
activities of the Department of Energy's Office of Basic Energy Sciences in Germantown,
Maryland; the Chicago Office - Integrated Support Center in Argonne, Illinois; the Arizona State
University Energy Frontier Research Center (EFRC) in Tempe, Arizona; the University of
Arizona EFRC in Tucson, Arizona; the Purdue University EFRC in West Lafayette, Indiana; and
the Institute for Atom-Efficient Chemical Transformations at Argonne National Laboratory in
Argonne, Illinois.

To accomplish the audit objective, we reviewed and evaluated documentation related to the
EFRCs as well as interviewed key personnel responsible for the projects.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Because our review was limited,
it would not necessarily have disclosed all internal control deficiencies that may have existed at
the time of our audit. Also, we considered the establishment of performance measures in
accordance with the Government Performance and Results Act of 1993 as they related to the
audit objective. There were no performance measures specific to the EFRCs. We relied on
computer processed data during our audit. We traced the data to supporting documents to
validate the reliability of the information as necessary to accomplish our audit objectives.

Management waived an exit conference.




                                            3
                                                               IG Report No. OAS-RA-L-10-09

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

      Your comments would be appreciated and can be provided on the Customer Response Form.
